No. 19-255

 

 

IN THE

Supreme Court of the United States

 

THOMAS MORE LAW CENTER,
Petitioner,

Vv.

MATTHEW RODRIQUEZ, ACTING ATTORNEY GENERAL OF THE STATE OF CALIFORNIA,
Respondent.

AFFIDAVIT OF SERVICE

I, John J. Bursch, a member of the Bar of this Court and counsel for Petitioner
hereby certify that on this 17th day of April, 2021, I caused a copy of the Reply Brief
for Petitioner to be served electronically on counsel as listed below. I further certify
that paper copies of the Reply Brief for Petitioner will be shipped for overnight
delivery via Federal Express on the 19th day of April, 2021 to the following:

Aimee Feinberg Elizabeth B. Prelogar
California Department of Justice Acting Solicitor General
1300 I Street U.S. Department of Justice
Sacramento, CA 95814 950 Pennsylvania Ave NW
Aimee.Feinberg@doj.ca.gov Room5616

Washington, DC 20530-0001
Derek L.Shaffer SupremeCtBriefs@USDOJ.gov

Quinn Emanuel Urquhart

& Sullivan, LLP
1300 I Street NW, Suite 900
Washington, DC 20005
derekshaffer@quinnemanuel.com

Executed on April 17, 2021.

 

   
  

ucd
N ee BURSOH Yu \

LIANCE DEFENDING FREEDOM
AO First Street NW, Suite 600
Washington, DC 20001

(616) 450-4235
jbursch@ADFlegal.org

Counsel for Petitioner

 

 
